WAIVE

Supreme Court, U.S.
FILED

MAR 0 2 2021
§FFICE OF THE CLERK

SUPREME COURT OF THE UNITED STAT
7
No.

20-1179

William W. Cole, Jr.

Lori Patton, as Chapter 7 Trustee, et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

Q

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
PRN Real Estate and Investment, Ltd. and Nancy Rossman

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

3/2/21

Date:

(Type or print) Name Peter H. Levitt
Mr.

0 Ms.

0 Mrs.

Firm

Shutts & Bowen, LLP

Address

200 S. Biscayne Blvd., Suite 4100

City & State

Miami, FL

Phone

305-415-9447

0 Miss

Zip 33131
Email plevitt@shutts.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
James K. Green, Esq., 222 Lakeview Avenue, Suite 1650, Esperante, West Palm Beach, FL 33401
cc:

PETER H. LEVITT
PARTNER
Shutts Et Bowen LLP
200 South Biscayne Boulevard
Suite 4100
Miami, Florida 33131
DIRECT (305) 415-9447
FAX
(305) 415-9847
EMAIL plevitt@shutts.com

March 2, 2021

VIA U.S. MAIL
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

William W. Cole, Jr., Petitioner v. Lori Patton, as Chapter 7 Trustee, No. 20-11791

Dear Sir or Madam:
Enclosed please find a Waiver by Respondents PRN Real Estate and Investment, Ltd. and
Nancy Rossman with respect to the Petition for Writ of Certiorari filed by William W. Cole, Jr.
Your attention to this matter is appreciated.

Peter H. Levitt
Enclosure
cc: James K. Green, Esq. (w/encl.)
MIADOCS 18939578 1

RECEIVED
MAR - 9 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

SHUTTS.COM I FORT LAUDERDALE I MIAMI I ORLANDO I SARASOTA

I TALLAHASSEE I TAMPA I WEST PALM BEACH

